U.S. SMALL BUSINESS ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL




             Report No. 13-02




Report on the Most Serious Management and
          Performance Challenges
 Facing the Small Business Administration
            In Fiscal Year 2013



             October 15, 2012
                           U.S. SMALL BUSINESS ADMINISTRATION
                              OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, D.C. 20416


                                       October 15, 2012

MEMORANDUM


TO:           Karen G. Mills
              Administrator

FROM:         Peggy E. Gustafson /s/
              Inspector General

SUBJECT:      Report on the Most Serious Management and Performance Challenges Facing the
              Small Business Administration in Fiscal Year 2013

In accordance with the Reports Consolidation Act of 2000, we are providing you with the Office
of Inspector General’s (OIG) Report on the Most Serious Management and Performance
Challenges Facing the Small Business Administration (SBA) in Fiscal Year (FY) 2013.
This report represents our current assessment of Agency programs and/or activities that pose
significant risks, including those that are particularly vulnerable to fraud, waste, error,
mismanagement, or inefficiencies. The Challenges are not presented in order of priority, as we
believe that all are critical management or performance issues.

Our report is based on specific OIG, Government Accountability Office (GAO), and other
official reports, as well as our general knowledge of SBA’s programs and operations.
Our analysis generally considers those accomplishments that the SBA reported as of
September 30, 2012.

Within each Management Challenge, there are a series of “recommended actions” to resolve the
Challenge. Each recommended action is assigned a color “status” score. The scores are as
follows: Green for “Implemented,” Yellow for “Substantial Progress,” Orange for “Limited
Progress,” and Red for “No Progress.” An arrow in the color box indicates that the color score
went up or down from the prior year. If a recommended action was added since last year’s
report, no color score has been assigned and the recommended action has been designated as
“New.”

As part of the OIG’s continuing evaluation of the Management Challenges, certain Challenges
have been updated or revised. In addition, actions that were scored Green last year, which
remained Green this year, have been moved up to the “history bar” above the recommended
actions. The history bar highlights any progress that the Agency has made on a Challenge over
the past four fiscal years (or as long as the Challenge has existed, if shorter) by showing the
number of actions that have moved to Green each year.

The following table provides a summary of the Most Serious Management and Performance
Challenges Facing the SBA in FY 2013.
Table 1 Summary of the Most Serious Management and Performance Challenges Facing the SBA in FY
2013



                                                               Color Scores
                                                                                 Change from
                                               Status at End of FY 2012
                                                                                  Prior Year
                   Challenge           Green      Yellow    Orange        Red   Up      Down 
     1    Small Business Contracting     1                    2                  1
     2    IT Security                                3        2
     3    Human Capital                              1        3                  1
     4    Loan Guaranty Purchase                     1
     5    Lender Oversight               1           1         1                 1
          8(a) Business Development
     6                                               1         1           1
          Program
     7    Loan Agent Fraud               1           1                           1
          Loan Management and
     8                                               1                     3     1         3
          Accounting System
          Improper Payments –
     9                                               2         2                 1
          7(a) program
          Improper Payments –
    10                                               1
          Disaster Loan program
          Acquisition Management
    11
          (NEW)
             TOTAL                       3          12         11          4     6         3



We would like to thank the SBA’s management and staff for their cooperation in providing us
with information needed to prepare this report. We look forward to continuing to work with the
SBA’s leadership team in addressing the Agency’s Management Challenges.
Contents

Challenge 1. Procurement flaws allow large firms to obtain small business awards and agencies to count
contracts performed by large firms towards their small business goals. .........................................................


Challenge 2. Weaknesses in information systems security controls pose significant risks to the Agency. ...


Challenge 3. Effective human capital strategies are needed to enable the SBA to carry out its mission
successfully and become a high-performing organization. .............................................................................


Challenge 4. The SBA needs to implement a quality control program in its loan centers.............................


Challenge 5. The SBA needs to further strengthen its oversight of lending participants. .............................


Challenge 6. The Section 8(a) Business Development program needs to be modified so more firms
receive business development assistance, standards for determining economic disadvantage are justifiable,
and the SBA ensures that firms follow 8(a) regulations when completing contracts. ....................................


Challenge 7. Effective tracking and enforcement would reduce financial losses from loan agent fraud. .....


Challenge 8. SBA needs to modernize its Loan Accounting System and migrate it off the mainframe. ......


Challenge 9. The SBA needs to accurately report, significantly reduce, and strengthen efforts to recover
improper payments in the 7(a) loan program. .................................................................................................


Challenge 10. The SBA Needs to Significantly Reduce Improper Payments in the Disaster Loan
Program. ..........................................................................................................................................................


Challenge 11: The SBA Needs to Effectively Manage the Acquisition Program..........................................


Appendix: Relevant Reports ..........................................................................................................................
 Challenge 1. Procurement flaws allow large firms to obtain small business awards
 and agencies to count contracts performed by large firms towards their small
 business goals.

The Small Business Act established a government-wide goal that 23 percent of the total value of all prime
contract awards for each fiscal year (FY) be to small businesses. As the advocate for small business, the SBA
should strive to ensure that only small firms obtain and perform small business awards. Further, the SBA
should ensure that procuring agencies accurately report contracts awarded to small businesses when
representing its progress in meeting small business contracting goals.

Previous OIG audits and other governmental studies have shown widespread misreporting by procuring
agencies since many contract awards that were reported as having gone to small firms have actually been
performed by larger companies. While some contractors may misrepresent or erroneously calculate their size,
most of the incorrect reporting results from errors made by government contracting personnel, including
misapplication of small business contracting rules. In addition, contracting officers do not always review the
on-line certifications that contractors enter into a governmental database prior to awarding contracts. The SBA
needs to ensure that contracting personnel are adequately trained on small business procurement and are
reviewing this database prior to awarding contracts.

The SBA also needs to address a loophole within General Services Administration (GSA) Multiple Awards
Schedule (MAS) contracts, which contain multiple industrial codes. Currently, a company awarded such a
contract can identify itself as small on individual task orders awarded under that contract even though it does
not meet the size criteria for the applicable task. Thus, agencies may obtain small business credit for using a
firm classified as small, when the firm is not small for specific orders under the MAS contract.

The SBA made limited progress on this challenge. In FY 2012, the SBA progressed to a “Green” rating to
provide reasonable assurance that agencies are providing small business contracting training to acquisition
personnel. As part of the training requirements for Level I, II, and III contracting officer certifications, course
curricula includes training on aspects of small business programs. The SBA also introduced a revised
checklist for conducting surveillance reviews, and submitted for clearance a revised Standard Operating
Procedure (SOP) to ensure consistency in conducting its surveillance reviews. The SBA also obtained
comments on a proposed rule that would provide a contracting officer multiple options for assigning codes on
a multiple award contract and is currently drafting a final rule for assigning industrial codes on multiple award
contracts.

 Challenge History                             Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2005               08-1                 09-0                 10-0          11-1
                                                                                                Status at end of
                              Recommended Actions for FY 2013
                                                                                                   FY 2012
 1. Develop and take steps to provide reasonable assurance that agencies are providing
    adequate basic and continuing education training to contracting personnel on small              Green 
    business contracting procedures.
 2. Revise the surveillance review process to ensure that they are conducted in a thorough and
                                                                                                    Orange
    consistent manner
 3. Issue regulations that require firms to meet the size standard for each specific order they
    receive under a GSA schedule and Government-wide Acquisition Contract (GWAC) and                Orange
    show that the regulations are being followed. (Previously action 3)
           Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                         1
Challenge 2. Weaknesses in information systems security controls pose significant
risks to the Agency.

The confidentiality, integrity, and availability of SBA’s information systems are vital to the continued
successful operation of the Agency. While information technology (IT) can result in a number of benefits,
such as information being processed more quickly and communicated almost instantaneously, it can also
increase the risk of fraud, inappropriate disclosure of sensitive data, and disruption of critical operations and
services. The SBA’s computer security program operates in a dynamic and highly decentralized
environment, and requires management’s attention and resources as weaknesses are identified.

The SBA improved in information system security in some critical areas during FY 2012. For example,
the Chief Information Security Officer instituted a review of all Plan of Action and Milestones (POA&M) for
SBA IT systems and began the acquisition of an application to manage SBA’s IT systems. Vulnerability
Assessment Team procedures were implemented to timely identify, prioritize and remediate critical issues.

To show further progress, the SBA needs to address both known and newly reported information security
issues. For example, the SBA needs to demonstrate a process that accomplishes timely mitigation of system
risks that are identified as “medium” and “high;” enforce an enterprise-wide configuration management
process; and ensure segregation of duties controls are in place and operating for all of its systems. The SBA
has improved in some areas; however, fieldwork for the FY 2012 Financial Statement Audit has identified
new weaknesses and findings and is anticipated for the FY 2012 Federal Information Security Management
Act (FISMA) review.


 Challenge History                            Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 1999              08-2            09-0               10-0               11-0
                                                                                                 Status at end of
                             Recommended Actions for FY 2013
                                                                                                    FY 2012
 1. Access controls are in place and operating effectively, and contractors are not granted
    system access until they have obtained the required background investigations and/or              Yellow
    security clearances.
 2. System software controls are in place and operating effectively.                                 Orange

 3. Segregation of duty controls are in place and operating effectively.                              Orange

 4. The POA&M accurately reports all computer security weaknesses and corrective actions.             Yellow
 5. The IT security management program is effective to address information security in
                                                                                                      Yellow
    systems that support the operations and assets of the organization.
     Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                         2
 Challenge 3. Effective human capital strategies are needed to enable the SBA to
 carry out its mission successfully and become a high-performing organization.

The SBA has experienced downsizing, high turnover, reorganizations, and realignments over the last several
years. In FY 2010, the SBA experienced significant turnover in the Office of Human Capital Management
(OHCM) which seriously impacted the level and scope of services provided to the Agency. In October 2011,
the U.S. Office of Personnel Management (OPM) completed a review that identified weaknesses in the SBA’s
human capital policies and practices that highlight the serious human capital challenges facing the Agency.
In late FY 2011, OHCM restructured and the Office of Human Resources Solutions (OHRS) was established.
During FY 2012, as part of its effort to restructure and address these issues, the SBA issued its Strategic
Human Capital Plan (SHCP) for FYs 2013 – 2016 that reflects a partnership between Program Offices and
Human Resources. The SHCP is designed to support the goals identified in the SBA’s Strategic Plan, which is
aimed at aligning human capital programs with the Agency’s mission, goals, and objectives. Further, the
SHCP incorporates the OIG’s recommended actions from the Management Challenges report with timeframes
for implementation.
The SBA demonstrated progress in FY 2012, by aligning current staff according to their competencies,
verifying current full-time equivalent (FTE) allocations for programs and offices, and establishing new FTE
ceilings based on workload analysis protocol between OHRS and Program Offices. The SBA also completed
an impact study of retirement projections, and continued efforts toward recruiting, hiring, and retaining people
with critical skills. OHRS has been proactive in making needed improvements; however, continued progress
is needed to complete the OIG’s recommended actions.

The results of Federal Human Capital Surveys—now called the Employee Viewpoint Survey (EVS)—also
have highlighted SBA’s serious human capital challenges. The SBA has consistently ranked near the bottom
on all four human capital indices—Leadership and Knowledge Management, Results-Oriented Performance
Culture, Talent Management, and Job Satisfaction. While the Agency showed some improvement in the 2011
EVS, it still fell below the government-wide average on these indices. In addition, the SBA was ranked 28th
out of 33 large agencies in the Partnership for Public Service’s 2011 “Best Places to Work” rankings.
The 2012 EVS scores and ranking were not available in time for this report.

Challenge History                          Actions Accomplished (Green Status) during Past 4 FYs
Fiscal Year (FY) Issued: 2001
(Revised 2007)                           08-0                 09-0                 10-0              11-0
                                                                                                Status at end
                             Recommended Actions for FY 2013
                                                                                                 Of FY 2012
 1. Ensure the Agency has an effective, comprehensive workforce and succession plan that
    align talent needs and capabilities with SBA’s FY 2011-2016 Strategic Plan. The SBA’s         Orange 
    workforce and succession planning goals should reflect the need to recruit and retain the
    appropriate talent, and should establish appropriate metrics to gauge SBA’s success at
    having the right people, in the right jobs, at the right time.
 2 . Ensure the Office of Human Capital Management (OHCM) is structured and equipped so
     as to add value by delivering needed strategic support and services such as continuity
     planning, talent management, organizational development, and strategic consulting to         Orange
     implement the Agency’s human capital plan and its mission.
 3. Ensure that Human Capital Management Standard Operating Procedures (SOPs) are
    updated and appropriately structured to support the Agency’s long-term goals and              Orange
    objectives and government-wide Human Capital Management initiatives.
 4. Take steps to correct problems identified in the 2010 EVS. Demonstrate improvement by
    increasing overall scores/Agency rankings in the 2011 EVS.                               Yellow
       Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress



                                                         3
 Challenge 4. The SBA needs to implement a quality control program in its loan
 centers.

The initial focus of this challenge was on improving deficiencies identified in the SBA’s loan liquidation and
guaranty purchase processes. Over the last decade, the Agency has made significant progress to improve these
processes at its loan centers, but a significant deficiency continues to exist in the area of quality control.

The Office of Financial Program Operations (OFPO) has made significant progress in developing a Quality
Control (QC) program for all of its loan centers to verify and document compliance with the loan process.
The QC program will assess the loan process from origination to close-out to identify where material
deficiencies may exist so that remedial action can be taken. A project guide for the QC program has been
developed and agreed upon by relevant parties within the Office of Capital Access. The QC program will
assess the overall quality of the centers’ deliverables to provide confidence to its stakeholders. The SBA hired
a QC manager to oversee the development of the program and established QC specialist positions for each
center. Furthermore, the SBA (1) developed and documented Quality Program Manuals for each center, (2)
updated checklists for each critical center function and, (3) refined feedback, training, and reporting processes.

While the SBA has made substantial progress in its development of a quality control program, additional work
remains before the SBA can demonstrate that all elements of the QC program are being completed and that the
program is effective at identifying and correcting material deficiencies. For example, an ongoing audit of the
SBA’s FY 2011 improper payment rate in the 7(a) loan guaranty purchase program found that improper
payment reviews led by the QC teams did not detect a high number of material improper payments.
Additionally, the audit determined that some QC specialists responsible for reviewing the loans were either
unfamiliar with or misinterpreted Agency policies, and applied internal guidance that conflicted with Agency
policies and procedures. In order to demonstrate that the QC program has been fully implemented, the SBA
will need to provide the results of QC reviews and other evidence to demonstrate that the reviews are effective
at identifying and correcting material deficiencies.

 Challenge History                                  Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2007                       08-2        09-0           10-1             11-0
                                                                                                Status at end of
                      Remaining Recommended Actions for FY 2013
                                                                                                   FY 2012

 1. Implement a Quality Assurance Program for all SBA loan centers.                                 Yellow

        Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                        4
 Challenge 5. The SBA needs to further strengthen its oversight of lending
 participants.

Since its inception in 1953, the SBA has loaned or guaranteed billions of dollars to finance and spur
investment in small businesses. In FY 2011, approximately 51 percent of loan dollars guaranteed by the SBA
were made using delegated authorities with limited oversight. Prior Office of Inspector General (OIG) and
Government Accountability Office reports disclosed weaknesses in the SBA’s oversight of its lending
participants. In a September 2012 audit report, the OIG found that during its onsite reviews, the SBA did not
always recognize the significance of lender weaknesses and determine the risks they posed to the Agency.
Additionally, the SBA did not link the risks associated with the weaknesses to the lenders’ corresponding risk
ratings and assessments of operations. Further, the SBA did not require lenders to correct performance
problems that could have exposed the Agency to unacceptable levels of financial risk. The risks inherent in
delegated lending require an effective oversight program to (1) monitor compliance with SBA policies and
procedures, and (2) take corrective actions when a material non-compliance is detected.

Since this management challenge was created in 2001, the SBA has made significant progress in its oversight
of lending participants. In FY 2012, the SBA expanded its review selection criteria to include portfolio size,
risk ratings, high growth, credit quality of new loans, and projected purchased rate of existing portfolio.
Furthermore, the SBA drafted a new composite risk measurement protocol to assess lender performance,
asset and liability management, compliance with program requirements, risk mitigation, and other factors.
In FY 2012, the SBA also fully implemented guidance for effective supervision and enforcement by taking
one enforcement action and several supervisory actions, while also preparing for others.

Although the Agency has made progress, it needs to demonstrate that onsite reviews are conducted on the
highest risk lending participants, which are selected for review based on its expanded selection criteria.
The SBA also needs to demonstrate that it tailors onsite reviews to determine the root cause of the risks in a
participant’s portfolio. Furthermore, the Agency needs to ensure that corrective actions are required for
material non-compliances and monitored for implementation and effective resolution.

                                          Actions Accomplished (Green Status) during Past 4 FYs
 Challenge History
 Fiscal Year (FY) Issued: 2001       08-7(a)-2        09-7(a)-0        10-7(a)-0           11-7(a)-0
                                     08-504-2         09-504-0          10-504-0           11-504-0
                                                                                     Status at end of
                          Recommended Actions for FY 2013                               FY 2012
                                                                                             7(a)        504
 1. Expand the scope of lender oversight and improve the process for reviewing lenders
                                                                                            Yellow      Yellow
    and Certified Development Companies.

 2. Implement guidance providing for effective supervision and enforcement.                Green      Green 
 3. Monitor and verify implementation of corrective actions to ensure effective resolution
                                                                                           Orange Orange
    prior to close-out.
           Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                        5
 Challenge 6. The Section 8(a) Business Development program needs to be modified
 so more firms receive business development assistance, standards for determining
 economic disadvantage are justifiable, and the SBA ensures that firms follow 8(a)
 regulations when completing contracts.

The SBA’s 8(a) Business Development (BD) program was created to assist eligible small disadvantaged
business concerns compete in the American economy through business development. Previously, the Agency
did not place adequate emphasis on business development to enhance the ability of 8(a) firms to compete, and
did not adequately ensure that only 8(a) firms with economically disadvantaged owners in need of business
development remained in the program. Companies that were “business successes” were allowed to remain in
the program and continue to receive 8(a) contracts, causing fewer companies to receive most of the 8(a)
contract dollars and many to receive none.

The SBA had made progress towards addressing issues that hinder the Agency’s ability to deliver an effective
8(a) program. For example, the SBA took a positive step by revising its regulations in March 2011 to ensure
that companies that are “business successes” are graduated out of the program, and by working to update its
SOP for the BD program to reflect these regulatory changes. These revised regulations also establish
additional standards to address the definition of “economic disadvantage,” however; the Agency has not
provided an economic analysis to justify these standards. In December 2011, the SBA awarded a contract to
develop and deploy a new system by December 2012 to assist SBA employees in monitoring 8(a) program
participants. However, the SBA has delayed deployment of the new system until January 2013.

 Challenge History                               Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2003                 08-1               09-1              10-0           11-0
                                                                                             Status at end of
                             Recommended Actions for FY 2013
                                                                                                 FY 2012
 1. Develop and implement a plan, including SOP provisions, which ensures that the 8(a) BD
    program identifies and addresses the business development needs of program participants       Orange
    on an individualized basis.
 2. Develop and implement Regulations and SOP provisions to ensure that participants are
                                                                                                  Yellow
    graduated once they reach the levels defined as business success.
 3. Establish objective and reasonable criteria that effectively measures “economic
                                                                                                   Red
    disadvantage” and implement the new criteria.
          Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                      6
 Challenge 7. Effective tracking and enforcement would reduce financial losses
 from loan agent fraud.

For years, OIG investigations have revealed a pattern of fraud by loan packagers and other for-fee agents in the
7(a) loan guaranty program. These schemes have involved hundreds of millions of dollars, yet SBA’s
oversight of loan agents has been limited, putting taxpayer dollars at risk. The Agency could reduce this risk
by establishing effective loan agent disclosure requirements, a database or equivalent means to track loan agent
involvement with its loans, and a more effective agent enforcement program.

Tracking Loan Agent Data. Over the years, in response to this Management Challenge, the SBA has proposed
various methods of tracking loan agent activity. After attempting and then rejecting various initiatives during
Fiscal Years (FYs) 2007 through 2009, during FY 2010, the SBA advised that it would capture the data by
having lenders fax the Form 159 (Fee Disclosure Form and Compensation Agreement for Agency Services) to
the SBA’s Fiscal and Transfer Agent (FTA). At the end of FY 2010, the SBA issued a Notice with
instructions on how lenders were to submit this data. During FY 2011, the Agency provided additional
guidance to lenders on how to submit Form 159 data (including loan identification numbers) to the FTA, and
updated loan review guidance so that the Office of Credit Risk Management (OCRM) could identify loan
agent-related problems. The SBA also issued the loan agent data collection requirement as permanent
guidance in SOP 50 10 effective October 1, 2011. During FY 2012, the Agency made additional progress by
beginning to link Form 159 information with its loan data. Although the SBA continues to experience
problems with data completeness and categorization, data quality is steadily improving. Moreover, the SBA is
considering implementing a registration system that would assign identifying numbers to registered loan
agents, thus enhancing its tracking capability.

Loan Agent Enforcement Procedures. In FY 2007, the Agency made progress by issuing SOP 51 00 that
contained procedures for reviewing loan agent information during onsite reviews and examinations and by
revising the guaranty purchase checklist (which lists the records that lenders need to provide when requesting
the SBA to pay a guaranty) to include the submission of the Form 159. However, the Agency also needed
to establish a more effective enforcement program to deter fraudulent loan agent activity. Effective
October 1, 2010, the SBA issued the Lender Supervision and Enforcement SOP 50 53 with provisions for
enforcement actions against loan agents and a delegation of authority to undertake these actions to the Director
of OCRM. A revised version of that SOP with improved procedures went into effect on June 1, 2012. At the
end of FY 2012, the Agency updated its website to notify lenders of those loan agents that had been the subject
of enforcement actions.

 Challenge History                           Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2000             08-1               09-00              10-0-           11-0
                                                                                          Status at end of
                            Recommended Actions for FY 2013
                                                                                               FY 2012
 1. Develop an effective method of disclosing and tracking loan agent involvement in SBA
    business loan programs.                                                                     Yellow
 2. Implement procedures for enforcement actions against loan agents for improper and
    fraudulent conduct.                                                                        Green 
          Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                       7
 Challenge 8. SBA needs to modernize its Loan Accounting System and migrate it off
 the mainframe.

In November 2005, the SBA initiated the Loan Management and Accounting System (LMAS) project to
update the Agency’s Loan Accounting System, and migrate it off of the mainframe. An OIG report in 2005
noted that the system was close to the end of its expected useful life, relied on obsolete technology, contained
major security vulnerabilities that could not be addressed until the system was moved to a new operating
platform, and was costly to operate.

In 2010, the Office of Management and Budget (OMB) issued Memorandum 10-26, recommending that
Federal agencies split large-scale modernization efforts into smaller, simpler segments with clear deliverables.
In response, the SBA changed its strategy for LMAS— going forward— to accelerate the migration of user
interfaces from the mainframe legacy platform to the Agency’s current architecture, and convert batch COBOL
systems from the mainframe to a more current and platform-independent environment. This strategy separated
LMAS into seven Incremental Improvement Projects (IIP). In addition, the SBA created a new Standard
Operating Procedure (SOP) to provide guidance for its IT Quality Assurance (QA) program. However, to
show further progress, the SBA needs to implement its QA/Independent Verification and Validation (IV&V
process that encompasses all of the requirements of its enterprise SDM, and provides sufficient evidence that
all LMAS work products undergo IV&V activities in accordance with the Agency’s Enterprise Quality
Assurance Plan.

Previous OIG and GAO reports on the LMAS identified concerns about SBA’s management of the project and
the project’s noncompliance with the Agency’s System Development Methodology (SDM) in key areas, which
impacted SBA’s ability to control project costs and quality; and the lack of an enterprise-wide or project-level
Quality Assurance (QA) functions to ensure that LMAS deliverables met SBA’s requirements and quality
standards.

In 2012, the SBA upgraded its Oracle accounting software, and implemented a number of web-based user
interface screens to initiate migration from the mainframe and is currently migrating its mainframe COBOL
computer code to a more modern platform. Also, in 2012, the SBA did not deploy an independent QA and
IV&V entity to ensure that LMAS deliverables meet SBA requirements and quality standards. These needs
were identified in previous OIG and GAO LMAS audit reports.

 Challenge History                                Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2010                  N/A                N/A             10-0               11-
                                                                                                 Status0at end
                               Recommended Actions for FY 2013
                                                                                                       of
 1. Migrate LAS to a new operating platform before the current mainframe contract expires in          FY
    2013.                                                                                            2012
                                                                                                    Yellow
 2. Modify the LMAS QA/IV&V contract and establish an effective Quality Assurance (QA)
    process which provides senior management independent assurance that LMAS development             Red 
    activities and related project deliverables meet SBA Quality standards.
 3. Establish a process for reviewing and accepting LMAS deliverables that complies with
    Quality Assurance and Systems Development Methodology requirements. This includes                Red 
    hiring or fully staffing an IV&V entity to validate deliverable acceptance.
 4. Implement a Quality Assurance process in LMAS in accordance with SBA’s Enterprise
    Quality Assurance Plan.                                                                          Red 
          Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




    4. hiring
                                                        8
 Challenge 9. The SBA needs to accurately report, significantly reduce, and
 strengthen efforts to recover improper payments in the 7(a) loan program.

Previous OIG audits have determined that the SBA’s reported improper payment rates for 7(a) loan approvals
and purchases were significantly understated. In FY 2011, the SBA reported no improper payments for 7(a)
loan approvals. However, a recent OIG audit estimated that at least 1,196 7(a) Recovery Act loans were not
originated and closed in compliance with SBA requirements. This resulted in at least $869.5 million in
inappropriate or unsupported loan approvals. Furthermore, in FY 2011, the SBA reported that the improper
payment rate for 7(a) purchases was 1.73-percent, or $40.7 million, when the rate could have been as high as
20-percent, or about $472 million. The SBA’s improper payment rates were understated because the Agency
did not adequately review sampled loans, used flawed sampling methodologies, and did not accurately project
review findings for both programs. The SBA also has not aggressively pursued recovery of 7(a) improper
payments.

Earlier OIG audits identified 7(a) loans that were not properly closed, or were made to borrowers who were
ineligible or who lacked repayment ability. In 2012, we reported that the limited reviews of lender
underwriting performed at guaranty purchase on early defaulted loans were not consistent with statutory and
regulatory authority and were contrary to SBA procedures, resulting in improper payments. We also reported
that high-dollar early-defaulted loans were not reviewed with the scrutiny required to identify improper
payments at guaranty purchase.

The Office of Capital Access (OCA) has taken actions to correct many of the deficiencies identified by the
OIG. The OCA has (1) acquired a statistician and revised its improper payment sampling methodology;
(2) improved and formalized its improper payment review process for 7(a) loan approvals and 7(a) loan
purchases; and (3) revised and formalized its process to review disputed denial, repair, and improper payment
decisions. The OCA has also improved the scrutiny applied to high-dollar early-defaulted loans by requiring
every loan to receive a quality control review prior to purchase. However, additional actions are needed to
accurately report, significantly reduce, and recover improper payments. The OCA needs to incorporate the
improper payment recovery process into formal policy. Additionally, the OCA needs to establish repayment
ability review requirements to be applied at guaranty purchase, develop a corrective action plan for 7(a) loan
approvals, and demonstrate that its corrective action plan for 7(a) loan purchases is effective in reducing
improper payments.

 Challenge History                     Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2010               N/A                 N/A              N/A                 11-0
                                                                                       Status at end of FY 2012
                         Recommended Actions for FY 2013                                 7(a)            7(a)
                                                                                      Approvals      Purchases
 1.   Ensure that processes used to calculate the improper payment rates for 7(a)
      loan approvals and purchases are designed and implemented to effectively
                                                                                      Yellow         Yellow 
      identify improper payments as defined by Office of Management and Budget
      (OMB) Circular A-123.
 2.   Reassign responsibility for final approval of disputed denial, repair, and
      improper payment decisions from the Office of Financial Assistance (OFA) to
                                                                                         N/A           Yellow
      the Office of Credit Risk Management (OCRM) to ensure an adequate and
      timely resolution of disputes.
 3.   Establish a process and time standards to expeditiously recover improper
                                                                                         N/A           Orange
      payments identified during Agency reviews and OIG audits.
 4.   Demonstrate that corrective action plans are effective in reducing improper
                                                                                       Orange          Orange
      payments in the 7(a) loan program.
        Green-Implemented Yellow-Substantial Progress Orange -Limited Progress Red-No Progress


                                                        9
 Challenge 10. The SBA Needs to Significantly Reduce Improper Payments in the
 Disaster Loan Program.

Previous OIG audits of the SBA’s Disaster Loan program determined that the improper payment rates reported
for this program were significantly understated. The SBA estimated that improper payments in the Disaster
Loan program were about $4.5 million, or 0.55 percent of loans approved in FY 2007, while the OIG reported
that it was at least 46 percent, or approximately $1.5 billion. The SBA’s improper payment rates were
understated because the Agency did not adequately review sampled loans, used flawed sampling
methodologies, and did not accurately project review findings for the program.

Previously, management challenge 9,”SBA needs to accurately report, significantly reduce, and strengthen
efforts to recover improper payments in the Disaster and 7(a) loan programs,” included both the Disaster Loan
program and 7(a) program. There were three recommended actions applicable to the Disaster Assistance
Program. Of the three recommended actions, one was implemented during FY 2010 and the two remaining
actions were implemented during FY 2011. One recommended action was to develop and implement a
corrective action plan to reduce improper payments. Although the Office of Disaster Assistance (ODA)
implemented the recommended action, the Agency has not achieved its reduction targets since implementation.
Specifically, the Agency missed its target goals of 16.7 percent for FY 2010 and 20.0 percent for FY 2011,
instead reporting rates of 34.2 and 28.4 percent, respectively. The target goals in the FY 2011 Agency
Financial Report are 20 percent for FY 2012, 17 percent for FY 2013, and 15 percent for FY 2014.

At the end of FY 2011, a new recommended action was added requiring the SBA to demonstrate that the
corrective action plan is effective in reducing improper payments in the Disaster Assistance Program.

The Agency has implemented an improved corrective action plan that specifically addresses root causes and
provides specific remedies, such as targeted training and inclusion of improper payments in personal business
commitment plans for employees. If properly implemented, we believe this course of action should effectively
reduce the rate in future years. The Agency’s internal improper payment assessment for FY 2012 indicated a
rate of 17.9 percent. This rate is lower than the 20 percent target necessary to achieve a rating of Yellow.
Therefore, the color status for FY 2012 is Yellow.

Challenge History                        Actions Accomplished (Green Status) during Past 4 FYs
Fiscal Year (FY) Issued: 2012           N/A                N/A             N/A              NEW
                                                                                          Status at end
                        Remaining Recommended Actions for FY 2013
                                                                                           of FY 2012

1. Demonstrate that corrective action plans are effective in reducing improper payments in the    Yellow
   Disaster Loan program.
          Green-Implemented Yellow-Substantial Progress Orange -Limited Progress Red-No Progress




                                                        10
      Challenge 11: The SBA Needs to Effectively Manage the Acquisition Program

In October 2010, the SBA realigned its acquisition program to address several significant deficiencies that
included high staff turnover; compliance with laws and regulations; application of funding principles; training
and certification of key contracting personnel; contractor oversight, and measuring performance through
validated metrics. Since realignment, the SBA has provided training to, and increased the number of,
acquisition staff. Our recent audit work and familiarity with SBA’s current acquisition activities indicate that
while improvements are in process, continuing challenges exist, including (1) poorly defined requirements,
(2) internal control deficiencies, (3) improper funding of contracts, (4) inadequate oversight, and (5) outdated
and incomplete SOPs related to acquisition.

For example, the SBA inadequately defined its requirements in its acquisition plan for the procurement of
information systems and IT hardware and software. In addition, the SBA’s contract management system
PRISM does not fully interface with the Agency’s current financial system JAAMS, exposing an internal
control deficiency. The SBA improperly funded contracts by violating the bona fide needs rule for procuring
IT hardware and software as well as reported an improper payments rate. Likewise, the SBA inadequately
monitored contracts to ensure products and services were delivered in accordance with contract requirements.
Furthermore, the SBA’s acquisition SOP is outdated; however, the SBA’s management plans to hire a
contractor to update its SOP. Finally, the SBA has not conducted an internal control review of its acquisition
functions consistent with the OMB requirements prior to this year, but is currently in the process of completing
its assessment. Whether this assessment will fully address the four key acquisition management areas
identified in OMB’s Assessment Guidelines for Assessing the Acquisition Function will have to be determined.

Agency managers are required by OMB Circular A-123, Managements Responsibility for Internal Control to
continuously monitor and improve the effectiveness of agency internal controls. However, the problems
discussed above indicate continuing systemic acquisition management issues for the SBA. Therefore, the SBA
still needs to better prepare its acquisition workforce for proper procurement planning, monitoring of
contractor performance, and conducting effective contract administration.

 Challenge History                              Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2013                  N/A              N N/A /A              N/A          NEW
                                                                                                   Status at end
                                Recommended Actions for FY 2013
                                                                                                    of FY 2012
 1.   Complete an assessment of the Agency’s acquisition activities using the OMB’s Guidelines
                                                                                                       New
      for Assessing the Acquisition Function.
 2.   Create and implement a comprehensive improvement plan — based on the results of the
      acquisition function assessment — that has measurable goals, objectives, prioritized actions
                                                                                                       New
      and timeframes to address deficiencies identified in the organizational alignment and
      leadership assessment area.
 3.   Create and implement a comprehensive improvement plan — based on the results of the
      acquisition function assessment — that has measurable goals, objectives, prioritized actions
                                                                                                       New
      and timeframes to address deficiencies identified in the acquisition policies and processes
      assessment area (i.e. acquisition management SOP).
 4.   Create and implement a comprehensive improvement plan — based on the results of the
      acquisition function assessment — that has measurable goals, objectives, prioritized actions
                                                                                                       New
      and timeframes to address deficiencies identified in the acquisition workforce assessment
      area.
 5.   Create and implement a comprehensive improvement plan — based on the results of the
      acquisition function assessment — that has measurable goals, objectives, prioritized actions
                                                                                                       New
      and timeframes to address deficiencies identified in the knowledge management and
      information systems assessment area.
            Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress

                                                       11
                                     Appendix: Relevant Reports

Most of the SBA OIG Reports listed can be found at http://www.sba.gov/office-of-inspector-general.

Challenge 1:

    SBA OIG, SBA’s Planning and Award of the Customer Relationship Management Contracts, ROM 10-16,
    June 29, 2010.
    Interagency Task Force on Federal Contracting Opportunities for Small Businesses Report, September 2010.
    SBA Advocacy, Analysis of Type of Business Coding for the Top 1,000 Contractors Receiving Small Business
    Awards in FY 2002, December, 2004.
    The Center for Public Integrity, The Big Business of Small Business: Top defense contracting companies reap
    the benefits meant for small businesses, September 29, 2004.
    The Center for Public Integrity, The Pentagon’s $200 Million Shingle: Defense data shows billions in mistakes
    and mislabeled contracts, September 29, 2004.
    SBA OIG, Audit of SBA's Administration of the Procurement Activities of Asset Sale Due Diligence Contracts
    and Task Orders, Report 4-16, March 17, 2004, pp. 8-9.
    GAO, Contract Management: Reporting of Small Business Contract Awards Does Not Reflect Current Business
    Size, GAO-03-704T. May 7, 2003.
    The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Fred C. Armendáriz, Associate Deputy
    Administrator, SBA, May 7, 2003.
    The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Felipe Mendoza, Associate Administrator, Office
    of Small Business Utilization, U.S. General Services Administration, May 7, 2003.
    SBA OIG, Review of Selected Small Business Procurements, Report 5-16, March 8, 2005.
    SBA OIG, SBA Small Business Procurement Awards Are Not Always Going to Small Businesses, Report 5-14,
    February 24, 2005.

Challenge 2:

    SBA OIG, Weaknesses Identified During the FY 2010 Federal Information Security Management Act Review,
    Report 11-06, January, 28, 2011
    SBA OIG, Audit of SBA’s FY 2010 Financial Statements, Report 11-03, November 12, 2010
    SBA OIG, Audit of SBA’s FY 2009 Financial Statements, Report 10-04, November 13, 2009
    SBA OIG, SBA’s FY2008 Financial Statements, Report 9-03, November 14, 2008
    SBA OIG, Audit of SBA’s Financial Statements for FY 2006, Report 7-03, November 15, 2006
    SBA OIG, Audit of SBA’s Information System Controls for FY 2004, Report 5-12, February 24, 2005

Challenge 3:

    OPM, 2011 Federal Employee Viewpoint Survey
    Partnership for Public Service, Best Places to Work in the Federal Government 2011
    Partnership for Public Service, Best Places to Work in the Federal Government 2010
    OPM, 2010 Federal Employee Viewpoint Survey
    SBA OIG, The Colorado District Office’s Servicing of 8(A) Business Development Program Participants,
    Report 10-15, September 30, 2010
    SBA OIG, Adequacy of Procurement Staffing and Oversight of Contractors Supporting the Procurement
    Function, ROM 10-13, April 9, 2010
    SBA OIG, SBA's Administration of the Microloan Program under the Recovery Act, ROM 10-10,
    December 28, 2009
    Partnership for Public Service, Best Places to Work in the Federal Government 2009
    OPM, 2008 Federal Human Capital Survey
                                                       12
   GAO, Agency Should Assess Resources Devoted to Contracting and Improve Several Processes in the 8(a)
   Program, GAO-09-16, November 2008
   GAO, Opportunities Exist to Build on Leadership’s Efforts to Improve Agency Performance and Employee
   Morale, GAO-08-995, September 2008
   SBA OIG, Non-Native Managers Secured Millions of Dollars from 8(a) Firms Owned by Alaska Native
   Corporations through Unapproved Agreements that Jeopardize the Firms’ Program Eligibility, Report 8-14,
   August 7, 2008
   GAO, Opportunities Exist to Improve Oversight of Women’s Business Centers and Coordination Among SBA’s
   Business Assistance Programs, GAO-08-49, November 2007
   SBA OIG, Audit of Two 8(a) Sole-Source Contracts Awarded to Contractors in SBA’s Mentor
   Protégé Program, Report 7-19, March 30, 2007
   SBA OIG, Management Advisory Report on the Transfer of Operations to the National Guaranty Purchase
   Center, Report 4-39, August 31, 2004
   GAO, Small Business Administration: Progress Made, but Transformation Could Benefit from Practices
   Emphasizing Transparency and Communication, GAO-04-76, October 2003
   GAO, Results Oriented Cultures: Implementation Steps to Assist Mergers and Organizational Transformations,
   GAO-03-699, July 2003
   GAO, Small Business Administration: Workforce Transformation Plan is Evolving, GAO-02-931T,
   July 16, 2002
   SBA OIG, Modernizing Human Capital Management, Report 2-20, May 31, 2002
   GAO, Small Business Administration: Current Structure Presents Challenges for Service Delivery, GAO-02-17,
   October 2001
   GAO, Small Business Administration: Steps Taken to Better Manage its Human Capital, but More Needs to be
   Done, GAO/T-GGD/AIMD-00-256, July 20, 2000
   SBA OIG, A Framework for Considering the Centralization of SBA Functions, November 1996

Challenge 4:

   SBA OIG, A Detailed Repayment Ability Analysis is Needed on High-Dollar Early-Defaulted Loans to Prevent
   Future Improper Payments, Report 12-18, August 16, 2012
   SBA OIG, High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and Improved Quality
   Control at the National Guaranty Purchase Center, Report 12-11R, March 23, 2012
   SBA OIG, SBA Generally Meets IPERA Reporting Guidance but Immediate Attention Is Needed to Prevent and
   Reduce Improper Payments, Report 12-10, March 15, 2012.
   SBA OIG, Origination and Closing Deficiencies Identified In 7(a) Recovery Act Loan Approvals, ROM 11-07,
   September 30, 2011
   SBA OIG, Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of
   Questioned Costs, ROM 11-06, August 25, 2011
   SBA OIG, Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating
   Huntington Learning Center Franchise Loans, Report 11-16, July 13, 2011
   SBA OIG, Material Deficiencies Identified in Four 7(a) Recovery Act Loans Resulted in $3.2 Million of
   Questioned Costs, ROM 11-05, June 29, 2011
   SBA, OIG America’s Recovery Capital Loans Were Not Originated and Closed In Accordance With SBA’s
   Policies and Procedures, ROM 11-03, March 2, 2011
   SBA OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans,
   ROM 10-19, September 24, 2010
   SBA OIG, SBA’s Management of the Backlog of Post-purchase Reviews at the National Guaranty Purchase
   Center, Report 9-18, August 25, 2009
   SBA OIG, The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a)
   Guaranty Loan Program, Report 9-16, July 10, 2009
   SBA OIG, Review of Key Unresolved OIG Audit Recommendations in Program Areas Funded by the American
   Recovery and Reinvestment Act and Related Activities Need to Safeguard Funds, ROM 09-1, April 30, 2009
   SBA OIG, Audit of the Liquidation Process at the National Guaranty Purchase Center, Report 9-08,
   January 30, 2009

                                                    13
SBA OIG, Audit of Six SBA Guaranteed Loans, Report 8-18, September 8, 2008
SBA OIG, Audit of Loan Classifications and Overpayments on Secondary Market Loans, Report 8-09,
March 26, 2008
SBA OIG, Audit of UPS Capital Business Credit’s Compliance with Selected 7(a) Lending Requirements,
Report 8-08, March 21, 2008
SBA OIG, Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National Guaranty Purchase
Center, Report 7-23, May 8, 2007
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-17, March 12, 2007
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-15, February 12, 2007
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-10, January 16, 2007
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-09, January 9, 2007
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-07, December 29, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-06, December 28, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-05, December 20, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 7-02, October 23, 2006
SBA OIG, Audit of Deficiencies in OFA’s Purchase Review Process for Backlogged Loans,
Report 6-35, September 29, 2006
SBA OIG, Survey of the Quality Assurance Review Process, Report 6-26, July 12, 2006
SBA OIG, Audit of SBA’s Implementation of the Improper Payments Information Act, Report 6-25,
June 21, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 6-22, May 17, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 6-17, March 20, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 6-16, March 20, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 6-14, March 2, 2006
SBA OIG, Audit of an SBA Guaranteed Loan, Report 5-26, September 28, 2005
SBA OIG, Audit of an SBA Guaranteed Loan, Report 5-21, July 15, 2005
SBA OIG, Management Advisory Report on the Transfer of Operations to the National Guaranty Purchase
Center, Report 4-39, August 31, 2004
SBA OIG, Audit of an Early Defaulted Loan, Report 4-38, August 24, 2004
SBA OIG, Audit of an Early Defaulted Loan, Report 4-33, July 30, 2004
SBA OIG, Audit of an Early Defaulted Loan, Report 4-28, July, 9, 2004
SBA OIG, Audit of an Early Defaulted Loan, Report 4-25, June 22, 2004
SBA OIG, Audit of an Early Defaulted Loan, Report 4-06, January 8, 2004
SBA OIG, Audit of an Early Defaulted Loan, Report 3-38, September 22, 2003
SBA OIG, Audit of an Early Defaulted Loan, Report 3-30, June 19, 2003
SBA OIG, Audit of an Early Defaulted Loan, Report 3-27, May 22, 2003
SBA OIG, Audit of the Guaranty Purchase Process, Report 3-15, March 17, 2003
SBA OIG, Audit of an Early Defaulted Loan, Report 3-07, January 23, 2003
SBA OIG, Audit of an Early Defaulted Loan, Report 2-32, September 30, 2002
SBA OIG, Audit of an Early Defaulted Loan, Report 2-30, September 24, 2002
SBA OIG, Audit of an Early Defaulted Loan, Report 2-23, August 7, 2002
SBA OIG, Audit of an Early Defaulted Loan, Report 2-15, March 29, 2002
SBA OIG, Improvements are Needed in Small Business Lending Company Oversight Process,
Report 2-12, March 21, 2002
SBA OIG, Audit of an Early Defaulted Loan, Report 2-03, February 27, 2002
SBA OIG, Audit of an Early Defaulted Loan, Report 2-05, February 27, 2002
SBA OIG, Audit of an Early Defaulted Loan, Report 1-10, March 9, 2001
GAO, Major Management Challenges and Program Risks, GAO-01-260, January 2001
SBA OIG, Audit of an Early Defaulted Loan, Report 0-10, April 23, 2000
SBA OIG, Audit of an Early Defaulted Loan, Report 0-12, March 28, 2000
SBA OIG, Audit of an Early Defaulted Loan, Report 0-05, February 14, 2000



                                                 14
Challenge 5:
   SBA OIG, Addressing Performance Problems of High-Risk Lenders Remains a Challenge for the Small
   Business Administration, Report 12-20R, September 28, 2012
   SBA OIG, SBA’s Oversight of SBA Supervised Lenders, Report 8-12, May 9, 2008
   SBA OIG, UPS Capital Compliance with Selected 7(a) Lending Requirements, Report 8-08, March 21, 2008
   GAO, Small Business Administration: Additional Measures Needed to Assess 7(a) Loan Program’s
   Performance, GAO-07-769, July 13, 2007
   SBA OIG, SBA’s Oversight of Business Loan Center, LLC, Report 7-28, July 11,2007
   SBA OIG, SBA’s Use of the Loan and Lender Monitoring System, Report 7-21, May 2, 2007
              Audit of the Office of Lender Oversight Corrective Action Process, Report 7-18, March 14, 2007
          Small Business Administration: Improvements Made, But Loan Programs Face Ongoing Management
   Challenges, GAO-06-605T, April 6, 2006
              SBA’s Administration of the Supplemental Terrorist Activity Relief (STAR) Loan Program,
   Report 6-09, December 23, 2005
          Small Business Administration: New Service for Lender Oversight Reflects Some Best Practices, But
   Strategy for Use Lags Behind, GAO-04-610, June 8, 2004
          Continued Improvements Needed in Lender Oversight, Report 03-90, December 2002
              Impact of Loan Splitting on Borrowers and SBA, Advisory Memorandum Report 2-31,
   September 30, 2002
              Improvements needed in SBLC Oversight, Advisory Memorandum Report 2-12, March 20, 2002
              Preferred Lender Oversight Program, Report 1-19, September 27, 2001
              SBA Follow-up on SBLC Examinations, Report 1-16, August 17, 2001

Challenge 6:

   SBA OIG, Audit on the Effectiveness of the SBA’s Surveillance Review Process, Report 11-11, March 31, 2011
   SBA OIG, Audit of Two 8(a) Sole –Source Contracts Awarded to Contractors in SBA’s Mentor Protégé
   Program, Report 7-19, March 30, 2007
   SBA OIG, Audit of Monitoring Compliance with 8(a) Business Development Regulations During 8(a) Business
   Development Contract Performance, Report 6-15, March 16, 2006
   SBA OIG, Business Development Provided by SBA’s 8(a) Business Development Program, Report 4-22,
   June 2, 2004
   SBA OIG, SACS/MEDCOR: Ineffective and Inefficient, Report 4-15, March 9, 2004
   SBA OIG, Section 8(a) Program Continuing Eligibility Reviews, Report 4-3-H-006-021, September 30, 1994

Challenge 7:

   SBA OIG, Applicant Character Verification in SBA’s Business Loan Program, Report 3-43, April 5, 2001
   SBA OIG, Summary Audit of Section 7(a) Loan Processing, Report 0-03, January 11, 2000
   SBA OIG, Loan Agents and the Section 7(a) Program, Report 98-03-01, March 31, 1998
   SBA OIG, Fraud Detection in SBA Programs, Report 97-11-01, November 24, 1997
   SBA OIG, Operation Clean sweep, Memorandum, August 21, 1996

Challenge 8:

   SBA OIG, Adequacy of Quality Assurance Oversight of the Loan Management and Accounting System Project,
   Report 10-14, September 13, 2010
   SBA OIG, Review of Allegations Concerning How the Loan Management and Accounting System
   Modernization Project is Being Managed, Report 9-17, July 30, 2009
   SBA OIG, Planning for the Loan Management and Accounting System Modernization and Development Effort,
   Report 8-13, May 14, 2008

                                                     15
   SBA OIG, SBA Needs to Implement a Viable Solution to its Loan Accounting System Migration Problem,
   Report 5-29, September 20, 2005
   GAO, Information Technology: Agencies Need to Improve the Accuracy and Reliability of Investment
   Information, GAO-06-250, January 12, 2006
   GAO, Major Management Challenges and Program Risks: Small Business Administration, GAO-03-116,
   January 1, 2003
   GAO, SBA Loan Monitoring System: Substantial Progress Yet Key Risks and Challenges Remain, Testimony of
   Joel C. Willemssen, Director, Civil Agencies Information Systems Accounting and Information Management
   Division, Before the Subcommittee on Government Programs Statement Committee on Small Business, House
   of Representatives, GAO/T-AIMD-00-113, February 29, 2000
   GAO, SBA Needs to Establish Policies and Procedures for Key IT Processes, Accounting and Information
   Management Division, GAO/AIMD-00-170, May 31, 2000

Challenge 9:

   SBA OIG, A Detailed Repayment Ability Analysis is Needed on High-Dollar Early-Defaulted Loans to Prevent
   Future Improper Payments, Report 12-18, August 16, 2012
   SBA OIG, High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and Improved Quality
   Control at the National Guaranty Purchase Center, Report 12-11R, March 23, 2012
   SBA OIG, SBA Generally Meets IPERA Reporting Guidance but Immediate Attention Is Needed to Prevent and
   Reduce Improper Payments, Report 12-10, March 15, 2012.
   SBA OIG, Origination and Closing Deficiencies Identified In 7(a) Recovery Act Loan Approvals,
   ROM 11-07, September 30, 2011
   SBA OIG, Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of
   Questioned Costs, ROM 11-06, August 25, 2011
   SBA OIG, Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating
   Huntington Learning Center Franchise Loans, Report 11-16, July 13, 2011
   SBA OIG, Material Deficiencies Identified in Four 7(a) Recovery Act Loans Resulted in $3.2 Million of
   Questioned Costs, ROM 11-05, June 29, 2011
   SBA, OIG America’s Recovery Capital Loans Were Not Originated and Closed In Accordance With SBA’s
   Policies and Procedures, ROM 11-03, March 2, 2011
   SBA OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans,
   ROM 10-19, September 24, 2010
   SBA OIG, SBA’s Management of the Backlog of Post-Purchase Reviews at the National Guaranty Purchase
   Center, Report 9-18, August 25, 2009
   SBA OIG, The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a)
   Guaranty Loan Program, Report 9-16, July 10, 2009
   SBA OIG, Audit of Borrower Eligibility for Gulf Coast Disaster Loans, Report 9-09, March 31, 2009
   SBA OIG, The Small Business Administration’s Fiscal Year 2007 Improper Payment Rate for the Disaster
   Loan Program, Report 9-10, March 26, 2009
   SBA OIG, Audit of the Liquidation Process at the National Guaranty Purchase Center, Report 9-08,
   January 30, 2009
   SBA OIG, The Use of Proceeds From Gulf Coast Disaster Loans, Report 9-06, January 15, 2009
   SBA OIG, Disaster Loss Verification Process, Report 8-15, June 17, 2008
   SBA OIG, Review of the Adequacy of Supporting Documentation for Disbursements, Report 8-07,
   January 29, 2008
   SBA OIG, The Quality of Loans Processed Under the Expedited Disaster Loan Program, Report 7-34,
   September 28, 2007
   SBA OIG, SBA’s Quality Assurance Reviews of Loss Verifications, Report 7-29, July 23, 2007




                                                   16
   SBA OIG, Securing Collateral for Disaster Loan Disbursements, Report 7-22, May 9, 2007

Challenge 10:

   SBA OIG, Origination and Closing Deficiencies Identified In 7(a) Recovery Act Loan Approvals, ROM 11-07,
   September 30, 2011

Challenge 11:

   SBA, OIG, The Small Business Administration’s Process Could Lead to Possible Anti-Deficiency Act
   Violations, Report 12-22, September 28, 2012
   SBA, OIG, The Small Business Administration’s Inappropriate Use of the Government Purchase Card for
   Construction Purchases, Report 12-16, August 6, 2012
   SBA OIG, The SBA’s Improper Payment Review and Reporting for its Contracting Activities did not Comply
   with IPERA and IPIA Requirements During FY 2011, Report 12-07, March 8, 2012
   SBA OIG, Small Business Administration’s Funding of Information Technology Contracts Awarded to Isika
   Technologies, Inc., Report 11-14, June 2, 2011
   SBA OIG, SBA’s Procurement of Information Technology Hardware and Software through Isika Technologies,
   Inc., Report 11-08, February 25, 2011
   SBA OIG, SBA’s Planning and Award of the Customer Relationship Management Contracts, ROM 10-16,
   June 29, 2010
   SBA OIG, SBA’s Efforts to Improve the Quality of Acquisition Data in the Federal Procurement Data System,
   Report 10-08, February 26, 2010
   SBA OIG, Adequacy of Procurement Staffing and Oversight of Contractors Supporting the Procurement
   Function, ROM 10-13, April 9, 2010
   SBA OIG, Office of Business Operations Contracting Personnel Qualifications and Warrant Authority,
   Report 9-14, July 6, 2009




                                                    17
